        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
The Department's Information
Technology Capital Planning and
Investment Control Activities




DOE/IG-0841                      September 2010
                                 Department of Energy
                                    Washington, DC 20585

                                       September 30, 2010


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department's Information
                         Technology Capital Planning and Investment Control Activities"

BACKGROUND

The Department of Energy spends approximately $2.2 billion annually on information
technology (IT) resources to help accomplish its science, security, energy supply and
environmental mission objectives. The Department's capital planning and investment control
(CPIC) process is an essential tool for managing IT investments. The Office of Management and
Budget (OMB) requires that agencies implement a well-managed CPIC process to enhance the
ability to properly set spending priorities, control investments and evaluate the success of those
investments once completed. As part of its current focus on eliminating under-performing
investments, OMB requires that agencies develop an IT Investment Portfolio and Capital Asset
Plans – two activities that are necessary to ensure new and ongoing investments are appropriately
identified and managed efficiently and effectively.

Past and ongoing Office of Inspector General (OIG) reviews have disclosed weaknesses in the
Department's ability to effectively manage its CPIC activities. For instance, our report on The
Department's Information Technology Capital Planning and Investment Control Process (OAS-
L-06-10, March 2006) identified Headquarters program offices that had not always fully
implemented the capital planning process. More recently, the audit of the Management of the
National Nuclear Security Administration's Classified Enterprise Secure Network Project
(DOE/IG-0823, September 2009) found that the National Nuclear Security Administration
(NNSA) had not been reporting required capital planning information to the Department or
OMB, depriving senior management and OMB of the information necessary to ensure that
projects were properly managed. In light of those issues, we initiated this audit to determine
whether the Department's CPIC process was effective.

RESULTS OF AUDIT

The Department had not effectively implemented a CPIC process for controlling and managing
IT spending. Specifically, management tools required by OMB, such as IT investment portfolios
and capital asset plans, which enable the Department to select and control its IT investments, had
not been properly implemented. In particular:

       Program and site officials had either not identified or had misclassified investments
       valued at more than $371 million in their IT investment portfolios. For example, the
                                                2


       majority of field sites reviewed had not included all appropriate investments in the
       Department's comprehensive IT portfolio. In addition, those investments that were
       reported were often misclassified or were inconsistently reported between sites and
       organizations; and,

       Major IT investments used to help accomplish the missions of the Department were not
       always supported by required capital asset plans. Such plans are necessary to ensure that
       IT initiatives are implemented in a timely and cost effective manner. Specifically,
       several large investments were divided into segments, thereby circumventing the
       requirement that they be reported as major investments supported by capital asset plans.
       Capital asset plans also were not developed for financial systems, as required. In some
       cases, the capital asset plans were not submitted in a timely manner to program officials
       for review.

These issues were due, in part, to problems with the Department's policy and guidance. In
particular, guidance issued by the Department's Office of the Chief Information Officer (OCIO)
was not consistent with Federal requirements related to identifying and reporting major IT
investments. In addition, insufficient performance monitoring and review by program and site
office officials contributed to an ineffective CPIC process. As a result, IT capital planning
activities did not provide Department senior management with timely and accurate information
essential for making informed decisions about investments that compete for limited resources.
In addition, absent a complete and accurate investment portfolio, the Department lacks the
tracking data to ensure that its development efforts are on schedule and within budget.

We found that the Department had, however, taken certain actions to enhance its CPIC process.
For instance, the OCIO has implemented a monthly IT dashboard reporting process to help
manage investment performance. In addition, site officials at the Pantex Plant had tied the CPIC
process to decisions related to project development, staffing needs and site funding.
Furthermore, we noted that the Chicago Office tracked annual IT spending and utilized its
investment portfolio to assist in the request for necessary funds from the Office of Science.
These are positive actions; however, additional effort is necessary. As such, we have made
several recommendations that, if fully implemented, should help improve the Department's
implementation of its CPIC process.

Near the end of our audit, we learned that the Department was considering modifying its CPIC
process to remove management and operating (M&O) contractors from OMB reporting and
other Federal data calls related to IT investments. The amount of funds dedicated to systems
managed by M&O contractors is massive and represents a significant proportion of Department
expenditures. As it moves forward with efforts to modify the CPIC process, the issues raised in
this audit report may be relevant as decisions are made. Perhaps most importantly, management
should ensure that an effective contractor assurance system is in place to monitor whether IT
investments are managed in an efficient and cost-effective manner. In responding to our report,
management stated that reporting for budget year 2012 will include M&O contractors.
However, the OCIO is still considering this strategy for future reporting.
                                               3


MANAGEMENT REACTION

Management concurred with the report's recommendations and disclosed that it had initiated
actions to address issues identified in our report. In separate comments, NNSA concurred with
the report's recommendations and provided its planned corrective actions. Management's
comments are included in their entirety in Appendix 3.

Attachment

cc:    Deputy Secretary
       Under Secretary of Energy
       Under Secretary for Science
       Administrator, National Nuclear Security Administration
       Chief of Staff
       Chief Financial Officer
       Acting Chief Information Officer
REPORT ON THE DEPARTMENT'S INFORMATION
TECHNOLOGY CAPITAL PLANNING AND INVESTMENT
CONTROL ACTIVITIES

TABLE OF
CONTENTS


Capital Planning and Investment Control Activities

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................8


Appendices

1.    Objective, Scope, and Methodology ..........................................................................10

2.    Related Reports ..........................................................................................................12

3.    Management Comments .............................................................................................14
The Department's Information Technology Capital Planning and
Investment Control Activities

Identification,          The Department of Energy (Department) had not effectively
Classification and       managed its capital planning and investment control (CPIC)
Control over Information process. In particular, management tools established by the
Technology Investments Office of Management and Budget (OMB) to enable the
                         Department to select and control its information technology
                         (IT) investments had not been properly implemented.
                         Specifically, the Department was required to aggregate all of
                         its IT-related spending into a comprehensive investment
                         portfolio (OMB Exhibit 53) to aid in annual budget
                         submissions and help identify duplicative investments. In
                         addition, certain investments within the portfolio require an
                         additional level of scrutiny and must be supported by capital
                         asset plans (OMB Exhibit 300) that detail the cost, scope, and
                         schedule of the investment. However, we found that the
                         Department had not identified and/or had not properly
                         classified all IT investments in its portfolio. Furthermore, 8 of
                         11 sites reviewed had not developed capital asset plans for
                         major investments, where required.

                                         Identification and Classification of IT Investments

                                 Although development of a complete and accurate IT portfolio
                                 was required to help manage investments, the Department had
                                 either not identified or had misclassified investments in its
                                 comprehensive portfolio. In addition, sites visited had not
                                 consistently reported investments. Portfolios should be aligned
                                 with the Department's annual budget and are intended to be
                                 used as a management tool to ensure that investments selected
                                 for funding are not duplicated between program offices or sites,
                                 and that funding for initiatives is prioritized to meet the
                                 Department's mission goals.

                                 Program offices and field sites had not identified all IT
                                 investments to ensure the accuracy and completeness of the
                                 Department's investment portfolio. Specifically, we found that
                                 7 of 11 sites visited had not included all appropriate
                                 investments in the Department's IT portfolio even though they
                                 were IT resources. OMB Circular A-11, Section 53, states that
                                 IT investments include equipment used by an agency or
                                 contractor to perform a service or furnish a product1. However,
                                 sites disclosed that they did not include items such as
                                 embedded computers, closed network systems, or specialized
1
 OMB Circular A-11, Section 53, states that Information Technology means any equipment or interconnected
system or system of equipment used in the automatic acquisition, storage, manipulation, management,
movement, control, display, switching, interchange, transmission, or reception of data or information.
________________________________________________________________
Page 1                                            Details of Finding
                      equipment, such as computers used to operate drill presses or
                      microscopes in the investment portfolio. While we attempted
                      to determine the overall dollar amount not reported, programs
                      and sites reviewed were unable to provide information on the
                      unreported investments and the anticipated expenditures for
                      each. We previously reported on similar situations in our
                      reports on the Management of National Nuclear Security
                      Administration's Classified Enterprise Secure Network Project
                      (DOE/IG-0823, September 2009) and the NNSA's Product
                      Realization Integrated Digital Enterprise (PRIDE) Initiative
                      (DOE/IG-0836, July 2010).

                      Numerous field sites also identified and reported various
                      investments as mission-specific in the Department's portfolio
                      even though they should have been classified as Infrastructure,
                      Office Automation and Telecommunications (IOA&T), as
                      required by OMB. Specifically, we identified 228 individual
                      investments with an expected annual cost for budget year 2011
                      of approximately $190 million that should have been reported
                      as IOA&T. For example, the Los Alamos and Sandia National
                      Laboratories and Fermilab (Fermi) all classified at least a
                      portion of their desktop computers as mission investments
                      rather than IOA&T. OMB defines IOA&T as those
                      investments supporting common user systems,
                      communications, and computing infrastructure, including
                      desktops, laptops, printers, telephones, servers, software, and
                      network operations centers.

                      In contrast, one site inappropriately reported investments as
                      IOA&T rather than mission-specific. In particular, Fermi had
                      included mission systems in the IOA&T section of the
                      portfolio, limiting the site's ability to identify and control its
                      mission-specific IT costs. Specifically, we noted more than
                      $2 million in business system investments at Fermi that were
                      not appropriately classified as direct mission for budget year
                      2011. As these systems support a specific facet of the
                      Laboratory's mission, they should have been categorized as
                      mission-specific.

                      As a result of these misclassifications, sites may have
                      overstated the amount of funding needed to support mission
                      activities while at the same time understating their
                      infrastructure-related costs. Proper classification of investment
                      information in the IT portfolio could have allowed the
                      Department to exercise better control over existing investments
                      and identify areas of potential duplication between existing and
________________________________________________________________
Page 2                                            Details of Finding
                      planned investments. We noted that OMB's most recent
                      guidance, which was issued following the completion of our
                      field work, allows dedicated infrastructure investments to be
                      reported as part of the mission area they support. Based on our
                      findings, field sites should review their individual portfolios to
                      ensure they are only reporting dedicated infrastructure as
                      mission investments and properly reporting shared
                      infrastructure as IOA&T.

                      Furthermore, site-level portfolios were not developed
                      consistently among sites and programs, making it impossible to
                      compare IT spending activities between organizations. For
                      example, while Fermi, an Office of Science (Science) site,
                      reported IT spending by functional area such as system
                      administration, Argonne National Laboratory (Argonne),
                      another Science site, grouped its investments by division. In
                      addition, the East Tennessee Technology Park's site level
                      portfolio reported only labor, but excluded all material and
                      other investment-related costs. Although the Department's
                      CPIC guidance noted that the portfolio should be utilized to
                      minimize duplication, Department officials were unable to
                      utilize the portfolio for this purpose due to the widely varying
                      selection and reporting processes used by programs and sites.
                      In commenting on our preliminary draft report, National
                      Nuclear Security Administration (NNSA) officials remarked
                      that this disparity between sites was also evident during the
                      CPIC training recently provided by the Department.

                                    Control over Major IT Investments

                      The Department had not ensured that all major investments
                      were supported by capital asset plans. As part of the CPIC
                      process, major IT investments selected for funding must have
                      capital asset plans that provide information related to overall
                      cost, schedule, and performance data. The plans are intended
                      to ensure that major Department initiatives are implemented in
                      a disciplined, well-managed, and consistent manner. Stressing
                      the need for such plans, OMB recently stated that Federal IT
                      projects too often cost more than they should, take longer than
                      necessary to deploy, and deliver solutions that do not meet
                      business needs.

                      OMB requires that high value IT investments are subject to
                      increased oversight because of their significant cost and
                      potential risk to the government. As such, the Department
                      considers any IT investment that exceeds $5 million over a
________________________________________________________________
Page 3                                            Details of Finding
                      three-year period as a major investment. In addition, OMB
                      requires that certain financial systems also be considered major
                      investments. Therefore, specific detailed information
                      regarding these types of investments must be included in a
                      capital asset plan. However, we found that:

                             Several large investments were divided into segments,
                             thereby circumventing the requirement that they be
                             reported as major investments supported by capital
                             asset plans. For example, Argonne reported its
                             Advanced Photon Source Division as six separate
                             segments in the site portfolio even though the overall IT
                             expenditures for 3 years totaled over $20 million and,
                             as a result, should have been subject to more rigorous
                             reporting requirements. In contrast, we noted that
                             another Argonne division, the Leadership Computing
                             Facility, also had expenditures over $20 million, but
                             had developed a capital asset plan for its investments.
                             We also found that Fermi separately reported 4
                             elements of its Collider Detector Program and 14
                             components of its United States Compact Muon
                             Solenoid Program. As with the Advanced Photon
                             Source, the costs for each of the individual elements fell
                             under the Department's threshold, but when combined,
                             the investments had three-year costs in excess of
                             $5 million and $17 million, respectively.

                             Only one of eight Management and Operating (M&O)
                             contractors reviewed had identified financial
                             management systems as major investments. OMB
                             defined financial management systems as those that
                             support budget, cost, and management functions and
                             directed that a system which is "for financial
                             management and obligates more than $500,000
                             annually" be reported as major investments. While we
                             noted that all eight M&O contractors reviewed received
                             and processed in excess of $500,000 from the
                             Department each year, only the Y-12 National Security
                             Complex had developed a capital asset plan for its
                             financial system, as appropriate. As a result, the
                             Department may not have been able to effectively
                             monitor ongoing development and maintenance for the
                             remaining contractor financial systems – activities
                             which OMB recently noted have, across agencies,
                             consistently under performed in terms of cost, schedule
                             and performance.
________________________________________________________________
Page 4                                            Details of Finding
                                  A capital asset plan for the Pantex Operations System
                                  Development and Integration project had not been
                                  submitted to the Department's Office of Chief
                                  Information Officer (OCIO) in a timely manner.
                                  Capital asset plans should be developed for major
                                  investments proposed for the budget year or later to
                                  enable officials to make informed decisions regarding
                                  whether the project should be funded and ensure that
                                  the proper level of planning was performed prior to the
                                  start of acquisition. However, the site had not provided
                                  a capital asset plan to the Department even though work
                                  began on the project in Fiscal Year 2009. At that time,
                                  site officials estimated the total cost of the project to be
                                  more than $34 million. Therefore, the project met the
                                  Department's definition of a major investment and
                                  should have been treated as such at that time. As a
                                  result, the Department was unable to effectively
                                  monitor selection and development of the project.
                                  Recently, OMB noted in Memorandum 10-27 that if IT
                                  investments are not planned well, cost and schedule
                                  overruns occur and expected benefits are jeopardized.
                                  In addition, tracking the execution of plans can provide
                                  early warning of potential problems and enable timely
                                  and effective mitigation.

Capital Planning       The problems we identified with the Department's CPIC
Direction and          process were due, in part, to issues with the Department's
Performance Monitoring policy and guidance. In addition, insufficient performance
                       monitoring and review by program and site office officials
                       contributed to an ineffective CPIC process.

                                             Capital Planning Direction

                           Weaknesses in the Department's policy and guidance to help
                           manage the CPIC process contributed to numerous problems
                           with the identification of investments by field sites and
                           impacted control over these investments. In particular, the
                           OCIO issued guidance that was inconsistent with Federal
                           requirements.

                           Rather than simply directing programs and sites to follow
                           OMB guidance when implementing the CPIC process, the
                           OCIO issued its own policy that was not always consistent with
                           Federal direction. For example, the Department's Capital
                           Planning Guide incorrectly defined financial management
________________________________________________________________
Page 5                                            Details of Finding
                      systems as major only if they had estimated investment costs of
                      $500,000 or more in one year. However, OMB Circular A-11
                      directs that financial management systems are to be considered
                      major investments if they process obligated funds in excess of
                      $500,000 annually. OCIO officials stated that this change had
                      been approved by OMB; however, we found that the definition
                      was only approved in support of the Department's Earned
                      Value Management policy, not the CPIC process. Even though
                      OCIO officials stated that the definition had been approved by
                      OMB, its IT Reporting Guidance issued in September 2009 had
                      not incorporated the Department's modified definition.

                      Additionally, while the Department's most recent reporting
                      guidance provided a definition of what resources should be
                      considered "information technology" investments and included
                      in the IT investment portfolio, we determined that the majority
                      of the Department's programs and sites reviewed had not
                      adopted its use, nor had they developed a similar definition for
                      their own use. Rather, the type of investments to be included
                      in the portfolio was determined at the site level by the
                      individuals responsible for reporting. We also found that
                      several sites excluded IT items that they viewed as "tools of
                      science" or specialized equipment even though Federal
                      direction did not specifically exclude reporting of such items.

                                   Performance Monitoring and Review

                      Insufficient performance monitoring and review of the IT
                      investment portfolio by program and site office officials also
                      contributed to the problems noted. Specifically, officials
                      performed little or no validation of ongoing IT-related
                      investment activities and information reported by the sites in
                      the investment portfolio. In particular, program office officials
                      stated that only a limited review of site-level investment
                      portfolios was performed. While submissions were checked to
                      ensure that all required information fields were complete and
                      Unique Project Identifier codes were present, the quality or
                      validity of the data was not evaluated. Periodic verification of
                      site investment information could have potentially enabled
                      program officials to uncover reporting anomalies, including
                      field sites reporting incomplete or inconsistent information
                      about their IT investments.

                      Furthermore, at five of eight M&O contractors visited, officials
                      did not review the contractors' investment portfolios before
                      they were sent to the program office for aggregation into the
________________________________________________________________
Page 6                                            Details of Finding
                      Department's portfolio. In one case, a Federal official from
                      Los Alamos commented that he had no authority under the
                      provisions of the site's contract to review and direct changes to
                      such information. In another instance, an official at Argonne
                      noted that he was unaware of any reviews conducted by the site
                      office to support the quality of the Laboratory's investment
                      portfolio.

Timely and Accurate   As a result of the problems identified, IT capital planning
Management            activities may not provide Department senior management
Information           or other Federal officials with timely and accurate information
                      essential for making informed decisions about investments that
                      compete for limited resources. Although OMB had directed
                      the use of a robust capital planning process across the Federal
                      government, the issues we noted within the Department
                      reduced this process to an annual compliance-based exercise.
                      Proper reporting of all investments would have enabled
                      accurate identification of critical funding needs, as well as
                      investments that should have had funding curtailed due to poor
                      performance or obsolescence. Continued failure in identifying
                      all major investments and applying the required level of
                      scrutiny increases the likelihood that investments will be
                      mismanaged.

                      In addition, absent a complete and accurate portfolio, the
                      Department could not ensure that its investments were
                      managed on-schedule and within budget. Proper management
                      of the CPIC process is vital for ensuring that the Department's
                      annual $2.2 billion investment in IT resources is utilized to
                      achieve agency goals and objectives in a prudent and cost-
                      effective manner. Our report on The Management of the
                      National Nuclear Security Administration's Classified
                      Enterprise Secure Network Project found that the project
                      experienced cost and schedule delays, which could have been
                      mitigated had the project been subject to a rigorous CPIC
                      review process. Without improvements in policy and
                      performance monitoring, the Department may continue to
                      experience difficulties ensuring that IT investments are
                      properly managed.

                      Information reported by the Department to OMB for use in
                      compiling the President's annual budget and government-wide
                      IT spending figures will also continue to be inaccurate. OMB
                      relies on accurate reporting by agencies to substantiate its
                      annual performance-based budget request. However, failure to

________________________________________________________________
Page 7                                            Details of Finding
                     accurately capture and report all investments and costs
                     undermines the validity of the Government-wide IT investment
                     portfolio. In addition, inadequate reporting may hinder OMB's
                     efforts to compare IT investments across agencies and ensure
                     that increasingly scarce taxpayer dollars are invested
                     appropriately. Furthermore, the Administration recently
                     announced an upcoming review of all government IT projects
                     to provide "relentless oversight" of the entire Federal IT
                     portfolio, as well as assist in the termination of IT projects that
                     are not effective, and focus more attention on the execution of
                     those that are performing as designed. An effective CPIC
                     process should aid in this effort and help ensure that the
                     Department's investments are supporting its mission.

RECOMMENDATIONS      To help improve the Department's ability to effectively use the
                     CPIC process to achieve agency goals and objectives, we
                     recommend that the Administrator, National Nuclear Security
                     Administration, the Under Secretary of Energy, and the Under
                     Secretary for Science, in coordination with the Department and
                     National Nuclear Security Administration Chief Information
                     Officers:

                        1. Ensure that programs and field sites implement CPIC
                           requirements set forth by OMB, as appropriate;

                        2. Enhance the level of oversight and review to ensure that
                           accurate and complete IT investment information is
                           reported and that the CPIC process is operating as
                           intended and required, including conducting periodic
                           validation of IT investments and reported information;
                           and,

                        3. Review and modify existing investment portfolios, as
                           appropriate, to ensure complete and consistent reporting
                           of IT investments.

MANAGEMENT           Management concurred with each of the report's
REACTION             recommendations. Management added that it had initiated or
                     completed actions designed to address weaknesses identified in
                     our report. In particular, the OCIO disclosed that the
                     information in the report will help it and program offices take
                     the appropriate action to improve the Department's CPIC
                     process. In separate comments, NNSA concurred with each of
                     the report's recommendation. In addition, NNSA commented
                     that it had completed the process of identifying all capital
                     assets and IT spending to establish a baseline for the NNSA IT
                     portfolio.

________________________________________________________________
Page 8                              Recommendations and Comments
AUDITOR COMMENTS     Management's comments were responsive to our
                     recommendations. Management's comments are included in
                     their entirety in Appendix 3.




________________________________________________________________
Page 9                                                 Comments
Appendix 1

OBJECTIVE             To determine whether the Department of Energy (Department)
                      was effectively managing capital planning and investment
                      control process for information technology investments.

SCOPE                 The audit was performed between October 2008 and July 2010
                      at Department Headquarters in Washington, DC and
                      Germantown, Maryland; the Oak Ridge Office, Oak Ridge
                      National Laboratory, Y-12 National Security Complex, and the
                      East Tennessee Technology Park, Oak Ridge, Tennessee; the
                      Sandia National Laboratories and the National Nuclear
                      Security Administration Service Center, Albuquerque, New
                      Mexico; the Los Alamos National Laboratory, Los Alamos,
                      New Mexico; the Pantex Plant, Amarillo, Texas; the Argonne
                      National Laboratory and the Chicago Office, Argonne, Illinois;
                      and, the Fermi National Accelerator Laboratory, Batavia,
                      Illinois.

METHODOLOGY           To accomplish our objective, we:

                               Reviewed applicable laws and Department directives,
                               including those pertaining to capital planning and
                               investment control;

                               Reviewed applicable guidance issued by Office of
                               Management and Budget;

                               Reviewed applicable guidance issued by the Office of
                               the Chief Information Officer related to capital
                               planning and investment control;

                               Obtained documentation from and held discussions
                               with officials from the Offices of Science,
                               Environmental Management, Health, Safety and
                               Security, and Chief Financial Officer, as well as the
                               National Nuclear Security Administration; and,

                               Reviewed prior reports by the Office of Inspector
                               General and the Government Accountability Office.

                      We conducted this performance audit in accordance with
                      generally accepted Government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      We believe that the evidence obtained provides a reasonable
                      basis for our finding and conclusions based on our audit.

________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 1 (continued)

                      Accordingly, we assessed significant internal controls and the
                      Department's implementation of the Government Performance
                      and Results Act of 1993 and determined that it had established
                      performance measures for management of its capital planning
                      and investment control activities. Because our review was
                      limited, it would not have necessarily disclosed all internal
                      control deficiencies that may have existed at the time of our
                      evaluation. We did not rely on computer-processed data to
                      satisfy our objective.

                      Management waived an exit conference.




________________________________________________________________
Page 11                            Objective, Scope, and Methodology
Appendix 2

                                 RELATED REPORTS

Office of Inspector General Reports

   The Management of the National Nuclear Security Administration's Classified Enterprise
   Secure Network Project (DOE/IG-0823, September 2009). The audit revealed that
   neither the planning nor execution of the Enterprise Secure Network (ESN) project had
   been effective. Furthermore, this process had led to a system which did not meet certain
   pre-established goals and objectives. These issues were attributable, in large part, to
   problems with planning and management of the ESN effort. Because of the lack of
   project management rigor, senior National Nuclear Security Administration (NNSA)
   management officials were deprived of the information necessary to ensure that the ESN
   initiative was properly planned and executed, apply generally recognized best practices,
   and to properly track project costs. Without general improvements in project
   management, future NNSA information technology projects, including these designed to
   enhance and upgrade ESN, may continue to experience delays and higher than necessary
   costs.

   The Department's Development and Implementation of the Corporate Human Resource
   Information System (OAS-L-06-14, May 2006). The Department of Energy's
   (Department) implementation of the Corporate Human Resource Information System
   (CHRIS) achieved many of its original defined requirements to automate human resource
   work processes, including enhancing operational efficiencies, reducing paperwork, and
   providing information necessary to help make sound human resource decisions.
   However, while the project satisfied many of its original goals, it did so at a cost
   significantly higher than anticipated. Specifically, actual costs to implement CHRIS
   equated to approximately 360 percent more than originally estimated. In addition,
   despite changes in project scope, costs, and timelines, management did not modify
   project documentation during development or reestablish project baselines. Without such
   analysis, management lacked the tools necessary to closely monitor project cost,
   schedule, and performance. The Office of Inspector General (OIG) further found that a
   required post-implementation review, that may have determined the causes of the cost
   overruns and helped the Department apply those lessons learned to other on-going
   efforts, had not been conducted.

   The Department's Information Technology Capital Planning and Investment Control
   Process (OAS-L-06-10, March 2006). The audit found that the Department had
   developed a number of controls designed to improve the management of its capital
   planning and investment control process. Specifically, the process for selecting,
   controlling, and evaluating information technology investments had been enhanced by
   requiring quarterly investment reviews; instituting the use of investment performance
   improvement plans; developing investment scoring schemes; and, publishing guidance
   for performing system post-implementation reviews. However, in certain instances, the
   OIG found that projects did not always conform to investment control requirements
   related to scoring, project manager certification, and validation of reported results.
   Furthermore, other factors that could limit the effectiveness of the investment control
   process were additionally observed.

________________________________________________________________
Page 12                                           Related Reports
Appendix 2 (continued)

Government Accountability Office Report

   Federal Capital: Three Entities' Implementation of Capital Planning Principles is Mixed
   (GAO-07-274, February 2007). This report revealed that the Government Accountability
   Office (GAO) found that in the selected entities, which included the Department's Offices
   of Science and Environmental Management, had mixed success with implementing the
   planning phase principles and practices described in the Office of Management and
   Budget's guide. GAO found that the selected entities' capital planning processes
   guidance generally requires a linkage between proposed investments and strategic goals
   and they assess needs and identify performance gaps in variety of ways, but the
   evaluation of alternatives are not always apparent in their capital planning
   documentation. Furthermore, although the entities each produced some long-term
   planning documents, none had developed a comprehensive capital plan that defines all of
   its long-term investment decisions. A comprehensive capital plan would help Congress
   make better-informed appropriations and oversight decisions.




________________________________________________________________
Page 13                                           Related Reports
Appendix 3




________________________________________________________________
Page 14                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 15                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 16                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 17                                     Management Comments
                                                             IG Report No. DOE/IG-0841

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
